      NATIONAL CREDIT UNION ADMINISTRATION

                  OFFICE OF INSPECTOR GENERAL



                           NCUA 2004
                  FINANCIAL STATEMENT AUDITS
                              FOR

                  OPERATING FUND
               SHARE INSURANCE FUND
            CENTRAL LIQUIDITY FACILITY
    COMMUNITY DEVELOPMENT REVOLVING LOAN FUND




                  For the year ended December 31, 2004

       Audited Financial Statements              Audit Report Number

           NCUA Operating Fund                        OIG-05-02
 National Credit Union Share Insurance Fund           OIG-05-03
          Central Liquidity Facility                  OIG-05-04
Community Development Revolving Loan Fund             OIG-05-05



                               March 31, 2005



                           _______________________
                              William A. DeSarno
                               Inspector General
                          EXECUTIVE SUMMARY
PURPOSE AND SCOPE             The National Credit Union Administration (NCUA)
                              Office of Inspector General contracted with the
independent public accounting firm of Deloitte & Touche to perform the financial
statement audits of the NCUA Operating Fund, the Share Insurance Fund, the
Central Liquidity Facility, and the Community Development Revolving Loan Fund,
for the year ended December 31, 2004.

The purpose of the audits is to express an opinion on whether the financial
statements are fairly presented. The independent firm also reviewed the internal
control structure and evaluated compliance with laws and regulations, as part of
their audit.

The audits were performed in accordance with generally accepted auditing
standards and Government Auditing Standards issued by the Comptroller
General of the United States.

FINANCIAL STATEMENT CONTRACT             The Inspector General contracted with
                                         Deloitte & Touche in August 2003 to
perform the financial statement audits mentioned above. The contract was for
2003, with options for 2004 and 2005. The Inspector General was the
contracting officer for this contract.

AUDIT RESULTS        Deloitte & Touche expressed unqualified opinions, stating
                     that the financial statements present fairly, in all material
respects, the financial position of the NCUA Operating Fund, the Share
Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Fund, at December 31, 2004, and the results of operations for
the year then ended.

Although Deloitte & Touche did not express an overall opinion of the Funds’
compliance with laws and regulations, their testing of compliance did not disclose
any significant deviations.

Deloitte & Touche did not find any matters considered to be material weaknesses
in their review of the Funds’ internal control structures pertinent to financial
reporting. However, during the performance of the audit, we developed
recommendations related to internal control over financial reporting and certain
observations and recommendations on other accounting, administrative, and
operating matters. The observations and recommendations section of this report
is restricted to official use only.
National Credit
Union Administration
Operating Fund
Financial Statements for the Years Ended
December 31, 2004 and 2003, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS


                                                                 Page

INDEPENDENT AUDITORS’ REPORT                                       1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2004 AND 2003:

 Balance Sheets                                                    2

 Statements of Revenues, Expenses, and Changes in Fund Balance     3

 Statements of Cash Flows                                          4

 Notes to Financial Statements                                    5-8
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA
                                                                                           Tel: +1 703 251 1000
                                                                                           Fax: +1 703 251 3400
                                                                                           www.deloitte.com


INDEPENDENT AUDITORS’ REPORT


Inspector General
National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Operating Fund (“the
Fund”) as of December 31, 2004 and 2003, and the related statements of operations, members’ equity,
and cash flows for the years then ended. These financial statements are the responsibility of the Fund’s
management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Company’s internal control over financial reporting. Accordingly,
we express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Operating Fund as of December 31, 2004 and 2003, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated March 15,
2005, on our consideration of National Credit Union Operating Fund’s internal control over financial
reporting and our tests of its compliance and other matters. The purpose of that report is to describe the
scope of our testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. That report is an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in considering the results of our
audit.




March 15, 2005



                                                     -1-                                   Member of
                                                                                           Deloitte Touche Tohmatsu
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
DECEMBER 31, 2004 AND 2003
(Dollars in thousands)


ASSETS                                                                    2004       2003

ASSETS:
 Cash and cash equivalents                                              $ 18,227   $ 24,450
 Due from National Credit Union Share Insurance Fund (Note 4)                150      1,914
 Employee advances                                                           540        339
 Other accounts receivable                                                   138        189
 Prepaid expenses and other assets                                           706        267
 Fixed assets—net of accumulated depreciation
  and amortization (Note 3)                                              35,994     37,208

TOTAL                                                                   $ 55,755   $ 64,367


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accounts payable                                                       $ 4,173    $ 4,505
 Obligations under capital leases (Note 5)                                1,336      2,367
 Accrued wages and benefits                                               2,381      5,455
 Accrued annual leave                                                     7,766      8,232
 Accrued employee travel                                                     21         77
 Notes payable to National Credit Union Share Insurance Fund (Note 4)    25,143     26,484

      Total liabilities                                                  40,820     47,120

FUND BALANCE                                                             14,935     17,247

TOTAL                                                                   $ 55,755   $ 64,367

See Notes to Financial Statements.




                                               -2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 2004 AND 2003
(Dollars in thousands)


                                                        2004       2003
REVENUES:
 Operating fees                                       $ 50,714   $ 57,984
 Interest                                                  581        427
 Other                                                      80        121

      Total revenues                                   51,375     58,532

EXPENSES (Note 4):
 Employee wages and benefits                           41,139     39,625
 Travel                                                 4,586      3,806
 Rent, communications, and utilities                    1,707      1,498
 Contracted services                                    2,572      2,224
 Other                                                  3,683      3,815

      Total expenses                                   53,687     50,968

EXCESS OF (EXPENSES OVER REVENUES)
 REVENUES OVER EXPENSES                                (2,312)     7,564

FUND BALANCE—Beginning of year                         17,247      9,683

FUND BALANCE—End of year                              $ 14,935   $ 17,247


See Notes to Financial Statements.




                                       -3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2004 AND 2003
(Dollars in thousands)

                                                                        2004        2003
CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                     $ (2,312)   $ 7,564
 Adjustments to reconcile excess of revenues over
  expenses to cash (used in) provided by operating activities:
  Depreciation and amortization                                          3,179      2,967
  Loss on disposal of employee residences held for resale                  115         21
  Loss on disposal of fixed assets                                          44         15
  (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                  1,764      (1,244)
    Employee advances                                                     (201)        (85)
    Other accounts receivable                                               51         (93)
    Prepaid expenses and other assets                                     (321)       (170)
  (Decrease) increase in liabilities:
    Accounts payable                                                      (332)     1,194
    Accrued wages and benefits                                          (3,074)       468
    Accrued annual leave                                                  (466)       563
    Accrued employee travel                                                (56)      (699)

      Net cash (used in) provided by operating activities               (1,609)    10,501

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets and employee residences held for resale      (3,325)     (1,086)
 Proceeds from sale of employee residences held for resale               1,083         162

      Net cash used in investing activities                             (2,242)      (924)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of notes payable                                            (1,341)     (2,438)
 Principal payments under capital lease obligations                     (1,031)     (1,271)

      Net cash used in financing activities                             (2,372)     (3,709)

NET (DECREASE) INCREASE IN CASH AND CASH EQUIVALENTS                    (6,223)     5,868

CASH AND CASH EQUIVALENTS—Beginning of year                             24,450     18,582

CASH AND CASH EQUIVALENTS—End of year                                 $ 18,227    $ 24,450

SUPPLEMENTAL DISCLOSURE OF CASH FLOW INFORMATION:
 Interest paid during the years ended December 31, 2004 and 2003
  was $512 and $743, respectively.

SUPPLEMENTAL DISCLOSURE OF NONCASH FINANCING ACTIVITIES:
 Capital lease obligations of $0 and $3,119 were incurred when the
  Fund entered into leases for new equipment during the years ended
  December 31, 2004 and 2003, respectively.

See Notes to Financial Statements.
                                                       -4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2004 AND 2003


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Operating Fund (the “Fund”) was created by the Federal Credit
     Union Act of 1934. The Fund was established as a revolving fund in the United States Treasury under the
     management of the National Credit Union Administration (“NCUA”) Board for the purpose of providing
     administration and service to the Federal Credit Union System.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents—The Federal Credit Union Act permits the Fund to make investments in United States
     Government securities or securities guaranteed as to both principal and interest by the United States
     Government. Cash equivalents are highly liquid investments with original maturities of three months or
     less. All investments in 2004 and 2003 were cash equivalents and are stated at cost, which approximates
     fair value.

     Depreciation and Amortization—Building, furniture and equipment, equipment under capital leases, and
     leasehold improvements are recorded at cost. Depreciation and amortization are computed by the straight-line
     method over the estimated useful lives of the building, furniture and equipment, and the shorter of the
     estimated useful life or lease term for leasehold improvements. Estimated useful lives are forty years for the
     building and three to ten years for the furniture, equipment, and leasehold improvements.

     Operating Fees—The Fund assesses each federally chartered credit union an annual fee based on the
     credit union’s asset base as of the preceding December 31. The fee is designed to cover the costs of
     providing administration and service to the Federal Credit Union System. The Fund recognizes this
     operating fee revenue ratably over the year. Included in the operating fees revenue for 2004 is a refund of
     $9 million to Federal Credit Unions of amounts previously collected.

     Income Taxes—The Fund is exempt from Federal income taxes under Section 501(c) (1) of the Internal
     Revenue Code.

     Fair Value of Financial Instruments—The following methods and assumptions were used in estimating
     the fair value disclosures for financial instruments:

       Cash and cash equivalents, receivable from National Credit Union Share Insurance Fund (“NCUSIF”),
       employee advances, other accounts receivable, accounts and notes payable to NCUSIF, and other
       accounts payable are recorded at book values, which approximate the respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.

3.   FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):

                                                       -5-
                                                                                    2004             2003

       Office building and land                                                  $ 42,626         $ 42,453
       Furniture and equipment                                                     10,827           11,509
       Equipment under capital leases                                               3,215            3,237

              Total                                                                56,668           57,199

       Less—Accumulated depreciation and amortization                             (20,674)          (19,991)

       Fixed assets—net                                                          $ 35,994         $ 37,208

     Accumulated amortization balances for equipment under capital leases as of December 31, 2004 and 2003
     were $2,000 and $860, respectively.

4.   TRANSACTIONS WITH NCUSIF

     Certain administrative services are provided by the Fund to NCUSIF. The Fund charges NCUSIF for these
     services based upon an annual allocation factor approved by the NCUA Board and derived from a study of
     actual usage. The allocation factor was 59.80% and 62.00% to NCUSIF for 2004 and 2003, respectively.
     The cost of the services allocated to NCUSIF, which totaled approximately $79,863,000 and $83,158,000
     for 2004 and 2003, is reflected as a reduction of the corresponding expenses in the accompanying financial
     statements.

     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with NCUSIF for the purchase of a
     building. Interest costs incurred were approximately $0 and $11,000 for 2004 and 2003, respectively. The note
     was fully repaid in 2003.

     In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year secured term
     note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a building in 1993.
     Interest costs incurred were approximately $512,000 and $732,000 for 2004 and 2003, respectively. The
     note payable balances at December 31, 2004 and 2003, were approximately $25,143,000 and $26,484,000,
     respectively.

     The above notes require principal repayments as follows (in thousands):

                                                                                                Secured
                                                                                               Term Note

       2005                                                                                $      1,341
       2006                                                                                       1,341
       2007                                                                                       1,341
       2008                                                                                       1,341
       2009                                                                                       1,341
       Thereafter                                                                                18,438

                                                                                           $     25,143

     The variable rate on both notes is equal to NCUSIF’s prior-month yield on investments. The average
     interest rates during 2004 and 2003 were 1.99% and 2.70%, respectively. The interest rates at
     December 31, 2004 and 2003, were 2.00% and 2.08%, respectively.
                                                     -6-
5.   LEASE COMMITMENTS

     Description of Leasing Agreements—The Fund has entered into a number of lease agreements with
     vendors for the rental of office space as well as the lease of office equipment that includes laptops, printers,
     monitors, and copiers.

     Operating Leases—The Fund leases office space under lease agreements that expire through 2008. Office
     rental charges amounted to approximately $1,018,000 and $1,133,000 of which approximately $608,580
     and $702,460 was reimbursed by NCUSIF for 2004 and 2003, respectively. In addition, the Fund leases
     office equipment under operating leases with lease terms of less than one year.

     The operating lease for the former Region IV (Chicago) regional office space was terminated early in May
     2004 to coincide with the closing of that office. In accordance with lease agreement the termination cost
     was paid in the amount of $331,800.

     Capital Leases—The Fund leases equipment under lease agreements that expire through 2008.

     The future minimum lease payments as of December 31, 2004, are as follows (in thousands):

                                                                                Operating             Capital
                                                                                 Leases               Leases

              2005                                                          $           728      $         1,061
              2006                                                                      742                  278
              2007                                                                      756                   14
              2008                                                                      559                    8
              2009                                                                      573

                    Total                                                   $         3,358                1,361

              Less—Imputed interest                                                                           (25)

              Present value of minimum
               lease payments                                                                    $         1,336

     Based on the allocation factor approved by the NCUA Board for 2004, NCUSIF will reimburse the Fund
     for approximately 57.00% of the future operating lease payments.

6.   RETIREMENT PLAN

     The employees of the Fund are participants in the Civil Service Retirement and Disability Fund, which
     includes the Federal Employees’ Retirement System (“FERS”). Both plans are defined benefit retirement
     plans covering all of the employees of the Fund. FERS is comprised of a Social Security Benefits Plan, a
     Basic Benefits Plan, and a Savings Plan. Contributions to the plans are based on a percentage of
     employees’ gross pay. Under the Savings Plan, employees can also elect additional contributions between
     1% and 15% of their gross pay, and the Fund will match up to 5% of the employees’ gross pay. In 2004
     and 2003, the Fund’s contributions to the plans were approximately $10,561,000 and $10,422,000,
     respectively, of which approximately $6,315,000 and $6,462,000 were reimbursed by NCUSIF,
     respectively.
     The Fund does not account for the assets of the above plans and does not have actuarial data with respect
     to accumulated plan benefits or the unfunded liability relative to eligible employees. These amounts are
     reported by the U.S. Office of Personnel Management for the Civil Service Retirement and Disability Fund
     and are not allocated to individual employers.

                                                        -7-
7.   DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows (in
     thousands):
                                                      December 31, 2004              December 31, 2003
                                                     Carrying     Fair              Carrying     Fair
                                                     Amount      Value              Amount      Value

       Cash and cash equivalents                     $18,227       $18,227         $ 24,450      $ 24,450
       Due from NCUSIF                                   150           150            1,914         1,914
       Employee advances                                 540           540              339           339
       Other accounts receivable                         138           138              189           189
       Accounts payable                                4,173         4,173            4,505         4,505
       Obligation under capital lease                  1,336         1,336            2,367         2,367
       Notes payable to NCUSIF                        25,143        25,143           26,484        26,484

8.   CONTINGENCIES

     NCUA is currently a party to a number of disputes that involve or may involve litigation. In the opinion of
     management, the ultimate liability with respect to these disputes, if any, will not be material to NCUA’s
     financial position.

9.   RESTRUCTURING

     NCUA announced on January 29, 2003, a regional restructuring plan, previously approved by the Board on
     November 21, 2002. The restructuring plan relocated the Region VI office in Concord, California, to
     Tempe, Arizona, and renumbered it to Region V. The plan also closed the Region IV regional office in
     Chicago, Illinois. The Region IV relocation and its related costs began in early 2003 and is expected to be
     completed by June 2005. Region V, located in Austin, Texas, was renumbered to Region IV. Credit union
     supervision was aligned with the five regions and became effective as of January 1, 2004.

     NCUA estimated that the costs to be incurred for the regional restructuring plan are $3,370,000, which
     includes relocation costs of $1,597,000, and miscellaneous administrative and other costs of $1,773,000.
     Approximately $1,880,000 and $1,482,000 of these estimated costs related to 2004 and 2003 respectively.
     Included in the cost estimate for 2004 are accrued costs that will be expended in 2005. Based on the
     allocation factors approved by the NCUA Board, the Operating Fund is responsible for 40.20% of costs
     expended in 2004. Thus, the Fund’s estimated cost for the regional restructuring plan in 2004 was
     approximately $756,000, and the NCUSIF’s estimated cost for the regional restructuring plan in 2004 was
     $1,124,000. Substantially all costs have been incurred except for some final relocation costs for
     employees. In accordance with SFAS Statement No. 146, Accounting for Costs Associated with Exit and
     Disposal Activities, an accrual of approximately $270,000 for relocations has been made in the Fund as of
     December 31, 2004.

                                                    ******




                                                      -8-
National Credit Union
Share Insurance Fund
Financial Statements for the Years Ended
December 31, 2004 and 2003, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS


                                             Page

INDEPENDENT AUDITORS’ REPORT                   1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
   DECEMBER 31, 2004 AND 2003:

 Balance Sheets                                2

 Statements of Operations                      3

 Statements of Fund Balance                    4

 Statements of Cash Flows                      5

 Notes to Financial Statements               6-14
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA
                                                                                           Tel: +1 703 251 1000
                                                                                           Fax: +1 703 251 3400
                                                                                           www.deloitte.com


INDEPENDENT AUDITORS’ REPORT


Inspector General
National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Share Insurance Fund
(“the Fund”) as of December 31, 2004 and 2003, and the related statements of operations, members’
equity, and cash flows for the years then ended. These financial statements are the responsibility of the
Fund’s management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Company’s internal control over financial reporting. Accordingly,
we express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Share Insurance Fund as of December 31, 2004 and 2003, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated March 15,
2005, on our consideration of National Credit Union Share Insurance Fund’s internal control over
financial reporting and our tests of its compliance and other matters. The purpose of that report is to
describe the scope of our testing, and not to provide an opinion on the internal control over financial
reporting or on compliance. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in considering the
results of our audit.




March 15, 2005



                                                    -1-                                    Member of
                                                                                           Deloitte Touche Tohmatsu
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
DECEMBER 31, 2004 AND 2003
(Dollars in thousands)


ASSETS                                                                  2004             2003

ASSETS:
 Investments (Note 6)                                              $ 4,485,591     $ 4,709,610
 Cash and cash equivalents                                           1,872,174       1,364,954
 Accrued interest receivable                                            38,246          45,761
 Assets acquired in assistance to insured credit unions                 16,627          12,217
 NCUSIF subordinated note                                                                1,711
 Notes receivable—National Credit Union
  Administration Operating Fund (Note 8)                                 25,143          26,484
 Other notes receivable and advances                                      1,558             880
 Fixed assets—net of accumulated depreciation
  and amortization (Note 3)                                                 518             934

TOTAL ASSETS                                                       $ 6,439,857     $ 6,162,551


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Estimated losses from supervised credit unions (Note 4)           $     67,126    $     76,667
 Amounts due to insured shareholders of liquidated credit unions         11,601           9,541
 Due to National Credit Union Administration
  Operating Fund (Note 8)                                                   150           1,914
 Cash assistance liability                                                1,078             100
 Accounts payable                                                            72               3
 Obligations under capital leases (Note 9)                                  522             936

      Total liabilities                                                  80,549          89,161

FUND BALANCE:
 Insured credit unions' accumulated contributions                      4,943,144       4,704,596
 Insurance fund balance                                                1,416,164       1,368,794

      Total fund balance                                               6,359,308       6,073,390

TOTAL LIABILITIES AND FUND BALANCE                                 $ 6,439,857     $ 6,162,551


See Notes to Financial Statements.




                                                    -2-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2004 AND 2003
(Dollars in thousands)


                                                                      2004        2003

REVENUES:
 Interest                                                           $ 124,836   $ 151,174
 Other                                                                    515         761

      Total revenues                                                 125,351     151,935

EXPENSES (Note 8):
 Administrative expenses:
  Employee wages and benefits                                         61,196      64,652
  Travel                                                               6,822       6,210
  Rent, communications, and utilities                                  2,539       2,443
  Contracted services                                                  3,827       3,629
 (Reduction of allowance) provision for insurance losses (Note 4)     (3,424)     38,043
  Other                                                                7,021       8,091

      Total expenses                                                  77,981     123,068

EXCESS OF REVENUES OVER EXPENSES                                    $ 47,370    $ 28,867


See Notes to Financial Statements.




                                                -3-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF FUND BALANCE
YEARS ENDED DECEMBER 31, 2004 AND 2003
(Dollars in thousands)


                                                     Insured
                                                  Credit Unions'   Insurance
                                                  Accumulated        Fund
                                                  Contributions     Balance

BALANCE AT JANUARY 1, 2003                         $ 4,267,169     $ 1,339,927

 Contributions from insured credit unions             437,427

 Excess of revenues over expenses                                      28,867

BALANCE AT DECEMBER 31, 2003                        4,704,596       1,368,794

 Contributions from insured credit unions             238,548

 Excess of revenues over expenses                                      47,370

BALANCE AT DECEMBER 31, 2004                       $ 4,943,144     $ 1,416,164


See Notes to Financial Statements.




                                            -4-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2004 AND 2003
(Dollars in thousands)

                                                                           2004              2003

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                    $      47,370     $      28,867
 Adjustments to reconcile excess of revenues over
  expenses to cash provided by operating activities:
   Depreciation and amortization                                               416               575
   (Recoveries) reserves relating to losses from supervised
     credit unions—net                                                       (9,541)          29,124
 Decrease (increase) in assets:
   Accrued interest receivable                                               7,515            23,413
   Capital assessment receivable                                                               3,697
   Assets acquired in assistance to insured credit unions, net               (4,410)           3,200
   NCUSIF subordinated notes                                                  1,711           (1,711)
   Other notes receivable and advances                                         (678)            (880)
 Increase (decrease) in liabilities:
   Amounts due to National Credit Union
     Administration Operating Fund                                           (1,764)           1,244
   Amounts due to insured shareholders of liquidated credit unions            2,060            3,313
   Accounts payable                                                              69
   Cash assistance liability                                                    978              100

      Net cash provided by operating activities                             43,726            90,942

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments                                                 (2,488,484)       (2,473,375)
 Proceeds from maturities of investments                                  2,712,503         2,299,302
 Purchase of fixed assets                                                                          (4)
 Collections on note receivable—National Credit
  Union Administration Operating Fund                                        1,341             2,438

      Net cash provided by (used in) investing activities                  225,360          (171,639)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Contributions from insured credit unions                                  238,548           437,427
 Principal payments under capital lease obligation                            (414)             (469)

      Net cash provided by financing activities                            238,134           436,958

NET INCREASE IN CASH AND CASH
 EQUIVALENTS                                                               507,220           356,261
CASH AND CASH EQUIVALENTS—Beginning of year                              1,364,954         1,008,693

CASH AND CASH EQUIVALENTS—End of year                                $ 1,872,174       $ 1,364,954

See Notes to Financial Statements.


                                                  -5-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2004 AND 2003


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Share Insurance Fund (NCUSIF, the “Fund”) was created by the Public
     Law 91-468 (Title II of the Federal Credit Union Act), which was amended in 1984 by Public Law 98-369.
     The Fund was established as a revolving fund in the United States Treasury under the management of the
     National Credit Union Administration (“NCUA”) Board for the purpose of insuring member share deposits
     in all federal credit unions and in qualifying state credit unions that request insurance. The maximum
     amount of insurance is $100,000 per shareholder account.

     NCUA exercises direct supervisory authority over federal credit unions and coordinates required
     supervisory involvement with the state chartering authority for state-chartered credit unions insured by the
     Fund. Insured credit unions are required to report certain financial and statistical information to NCUA on
     a semiannual or quarterly basis depending on the size of the credit union and are subject to periodic
     examination by NCUA. Information derived through the supervisory and examination process provides the
     Fund with the ability to identify credit unions experiencing financial difficulties that may require assistance
     from the Fund.

     Credit unions experiencing financial difficulties may be assisted by the Fund in continuing their operations
     if these difficulties are considered by the Fund to be temporary or correctable. This special assistance may
     be in the form of a waiver of statutory reserve requirements, a guarantee account, and/or cash assistance. If
     continuation of the credit union’s operations with Fund assistance is not feasible, a merger partner may be
     sought. If the assistance or merger alternatives are not practical, the credit union is liquidated.

     The first form of special assistance is waivers of statutory reserve requirements, whereby the credit union
     is permitted to cease making additions to its regular reserve and, in more severe cases, to commence
     charging operating losses against its regular reserve. When all reserves have been depleted by the credit
     union, the Fund may provide a reserve guarantee account in the amount of the reserve deficit. In addition,
     the Fund may provide cash assistance in the form of share deposits and NCUSIF subordinated notes, or
     may purchase assets from the credit union.

     Mergers of financially troubled credit unions with stronger credit unions may also require Fund assistance.
     Merger assistance may be in the form of cash assistance, purchase of certain assets by the Fund, and/or
     guarantees of the values of certain assets (primarily loans).

     When a credit union is no longer able to continue operating and the merger and assistance alternatives are
     not practical, the Fund will liquidate the credit union, dispose of its assets, and pay members’ shares up to
     the maximum insured amount. The values of certain assets sold (primarily loans) are sometimes
     guaranteed to third-party purchasers by the Fund.




                                                       -6-
2.    SIGNIFICANT ACCOUNTING POLICIES

      Cash Equivalents and Investments—Title II of the Federal Credit Union Act limits the Fund’s
      investments to United States Government securities or securities guaranteed as to both principal and
      interest by the United States Government. Cash equivalents are highly liquid investments with original
      maturities of three months or less. All investments are classified as held-to-maturity under Statement of
      Financial Standards No. 115, Accounting for Certain Investments in Debt and Equity Securities.
      Accordingly, the Fund records investments at amortized cost. Amortized cost is the face value of the
      securities plus the unamortized premium or less the unamortized discount.

      Depreciation and Amortization—Furniture, equipment and capital leases are recorded at cost.
      Depreciation and amortization are computed by the straight-line method over the estimated useful lives of
      the furniture and equipment and the shorter of the estimated useful life or lease term for capital leases.
      Estimated useful lives are three years for the furniture, equipment and capital leases.

      Advances to Insured Credit Unions—The Fund provides cash assistance in the form of interest and
      noninterest-bearing NCUSIF (“National Credit Union Share Insurance Fund”) subordinated notes (carried
      at face value), share deposits, and loans to certain credit unions to assist them in continuing their
      operations.

      Assets Acquired from Credit Unions—The Fund acquires the assets of liquidating credit unions pending
      their ultimate disposition. To assist in the merger of credit unions, the Fund may purchase certain credit
      union assets. In addition, the Fund may provide cash assistance by acquiring non-performing assets of a
      credit union experiencing financial difficulty. These acquired assets are maintained by the Asset
      Management and Assistance Center in Austin, Texas, and are recorded by the Fund at their estimated net
      realizable value.

      Premium Revenue—The Fund may assess each insured credit union a premium charge for insurance in an
      amount stated as a percentage of insured shares outstanding as of December 31 of the preceding insurance
      year if the Fund’s equity ratio is less than 1.3%. The NCUA Board waived the 2004 and 2003 share
      insurance premiums (see Note 5).

      Income Taxes—The Fund is exempt from Federal income taxes under Section 501(c)(1) of the Internal
      Revenue Code.

      Fair Value of Financial Instruments—The following methods and assumptions were used in estimating
      the fair value disclosures for financial instruments:

     a.   Cash and Cash Equivalents—The carrying amounts for cash and cash equivalents approximate fair
          values.

     b.   Investments—The fair value for investments is the quoted market value.

     c.   NCUSIF Subordinated Notes and Other Notes Receivable—It is not practicable to estimate the fair
          value of these assets as there is no secondary market. The Fund has the ability and the intention to hold
          these notes to maturity.

     d.   Other—Accrued interest receivable, capital assessment receivable, notes receivable from NCUA
          Operating Fund, payable to NCUA Operating Fund, lease obligations, due to insured shareholders of
          liquidated credit unions and other accounts payable are recorded at book values, which approximate the
          respective fair values.



                                                        -7-
     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions, particularly the estimated losses from supervised credit unions, that affect the reported
     amounts of assets and liabilities and disclosures of contingent assets and liabilities at the date of the
     financial statements and the reported amounts of revenues and expenses during the reporting period.
     Actual results could differ from management’s estimates.

3.   FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):

                                                                                         December 31,
                                                                                        2004      2003

       Furniture and equipment                                                        $ 500        $ 526
       Equipment under capital leases                                                  1,240        1,240

              Total                                                                     1,740        1,766

       Less: Accumulated depreciation and amortization                                 (1,222)        (832)

       Total fixed assets—net                                                         $ 518        $ 934

     Accumulated amortization balances for equipment under capital leases as of December 31, 2004 and 2003,
     totaled $723 and $310, respectively.

4.   PROVISION FOR INSURANCE LOSSES

     Management identifies credit unions experiencing financial difficulty through NCUA’s
     supervisory and examination process. The estimated losses from these supervised credit unions are
     determined by management on a specified case basis. Management also evaluates overall
     economic trends and monitors potential system-wide risk factors such as increasing levels of
     consumer debt, bankruptcies, and delinquencies. NCUA applies a rating system to assess a credit
     union's financial condition and operations in the areas of Capital Adequacy, Asset Quality,
     Management, Earnings, and Asset/Liability Management (CAMEL). The CAMEL Rating System
     is a tool to measure risk and allocate resources for supervisory purposes. The NCUA periodically
     reviews the CAMEL Rating System to respond to continuing economic and regulatory changes in
     the credit union industry. During 2004 NCUA developed a new model of determining reserve
     requirements. For non-specified case reserve requirements, risk profile categories are established
     based on the CAMEL rating of problem credit unions, and probable failure and loss rates are
     applied based on historical data. The anticipated losses are net of estimated recoveries from the
     disposition of the assets of failed credit unions.

     Total insurance in force as of December 31, 2004 and 2003, is $500 billion and $479 billion, respectively,
     which includes natural person and corporate credit unions. The total net reserves for identified and
     anticipated losses from supervised credit unions’ failures is $67 million and $77 million at December 31,
     2004 and 2003, respectively. Should there be no recoveries provided during the resolution process, possible
     additional reserves for $12 million and $18 million would be required as of December 31, 2004 and 2003,
     respectively.

     In exercising its supervisory function, the Fund will, at times, extend guarantees of assets (primarily loans)
     to third-party purchasers or to credit unions to facilitate mergers. The Fund would be obligated upon non-
                                                        -8-
performance. Such guarantees totaled approximately $0 at both December 31, 2004 and 2003. The
estimated losses from asset and merger guarantees are determined by management on a case-by-case
evaluation.

In addition, the Fund may grant a guaranteed line-of-credit to a third party credit provider, such as a
corporate credit union or bank, if a credit union has a current or immediate liquidity concern and the credit
provider has refused to extend credit without a guarantee. The Fund would be obligated if the credit union
failed to perform. Total line-of-credit guarantees of credit unions at December 31, 2004 and 2003, are
approximately $0 and $800,000, respectively. The total balances outstanding under these line-of-credit
guarantees at December 31, 2004 and 2003, are approximately $0 and $126,000, respectively.

The activity in the reserves for estimated losses from supervised credit unions was as follows (in
thousands):

                                                                                    Year Ended
                                                                                   December 31,
                                                                                2004         2003

  BEGINNING BALANCE                                                          $ 76,667       $ 47,543

   Insurance losses                                                           (17,660)        (15,006)
   Recoveries                                                                  11,543           6,087
   Reduction of allowance for insurance losses                                 (3,424)
   Provision for insurance losses                                             ______          38,043
  ENDING BALANCE                                                             $ 67,126       $ 76,667




                                                  -9-
5.   FUND CAPITALIZATION

     The Credit Union Membership Access Act of 1998 (“CUMAA”) mandated changes to the Fund’s
     capitalization provisions effective January 1, 2000. Each insured credit union shall pay to and maintain
     with the Fund a deposit in an amount equaling 1% of the credit union’s insured shares. The amount of each
     insured credit union’s deposit shall be adjusted as follows, in accordance with procedures determined by
     the NCUA Board, to reflect changes in the credit union’s insured shares: (i) annually, in the case of an
     insured credit union with total assets of not more than $50,000,000; and (ii) semiannually, in the case of an
     insured credit union with total assets of $50,000,000 or more. The annual and semiannual adjustments are
     based on member share deposits outstanding as of December 31 of the preceding year and June 30 of the
     current year, respectively. The 1% contribution will be returned to the insured credit union in the event that
     its insurance coverage is terminated, or is obtained from another source, or the operations of the Fund are
     transferred from the NCUA Board.

     The CUMAA mandates certain premium charges from insured credit unions and distributions from the
     Fund under certain circumstances. A premium charge to insured credit unions is required if the Fund’s
     equity ratio (as defined in the CUMAA) falls below 1.2% of insured shares. Also, pro rata distributions to
     insured credit unions after each calendar year are required if, as of year-end:

     (i)   Any loans to the Fund from the Federal Government, and any interest on those loans, have been
           repaid;

     (ii) The Fund’s equity ratio exceeds the normal operating level (as defined in the CUMAA, an equity
          ratio specified by the NCUA Board, which shall be not less than 1.2% and not more than 1.5%); and

     (iii) The Fund’s available assets ratio, as defined in the CUMAA, exceeds 1.0%.

     The NCUA Board has determined that the normal operating level is 1.30% at December 31, 2004 and
     2003. The calculated equity ratios at both December 31, 2004 and 2003 were 1.27%.

     Beginning in 2000, the CUMAA mandates that dividends are determined from specific ratios, which are
     based upon year-end reports of insured shares. Accordingly, dividends associated with insured shares at
     year-end are declared and paid in the subsequent year.

     The NCUA Board has declared that no dividends were payable on insured shares as of December 31, 2004
     and 2003, because the equity ratios of 1.27% were below the normal operating level of 1.30%. Total
     insured shares as of December 31, 2004 and 2003, were $500 billion and $479 billion, respectively.




                                                      - 10 -
6.   INVESTMENTS

     All cash received by the Fund that is not used for outlays related to assistance to insured credit unions and
     liquidation activities is invested in U.S. Treasury securities.

     Investments consist of the following (in thousands):

                                                                    December 31, 2004
                                       Yield to                          Gross          Gross            Estimated
                                       Maturity       Amortized        Unrealized     Unrealized          Market
                                      at Market         Cost             Gains         Losses              Value

       U.S. TREASURY
        SECURITIES:
        Maturities up to one year        1.76 % $       2,015,675       $    190      $    (8,428)     $ 2,007,437
        Maturities after one year
         through five years              2.30 %         2,469,916                         (29,977)       2,439,939

       Total                                      $     4,485,591       $    190      $   (38,405)     $ 4,447,376

                                                                    December 31, 2003
                                       Yield to                          Gross          Gross            Estimated
                                       Maturity       Amortized        Unrealized     Unrealized          Market
                                      at Market         Cost             Gains         Losses              Value

       U.S. TREASURY
        SECURITIES:
        Maturities up to one year        2.87 % $       2,536,670       $ 19,986      $       -        $ 2,556,656
        Maturities after one year
         through five years              1.74 %         2,172,940           5,530                        2,178,469

       Total                                      $     4,709,610       $ 25,516      $       -        $ 4,735,125


     Total investment purchases during 2004 and 2003 were approximately $2.3 billion and $2.4 billion,
     respectively. Investment maturities during 2004 and 2003 were approximately $2.5 billion and $2.2 billion,
     respectively. The Fund has the capability and management has the intention to hold all investments held at
     December 31, 2004 and 2003 to maturity. There were no investment sales during 2004 and 2003.

7.   AVAILABLE BORROWINGS

     The Fund is authorized by the Federal Credit Union Act to borrow from the Treasury of the United States,
     upon authorization by the NCUA Board, up to a maximum of $100,000,000. The NCUA Central Liquidity
     Facility (“CLF”) is authorized to make advances to the Fund under terms and conditions established by the
     NCUA Board. No borrowings were obtained from these sources during 2004 and 2003.




8.   TRANSACTIONS WITH NCUA OPERATING FUND

     Substantial administrative services are provided to the Fund by the NCUA Operating Fund. The NCUA
     Operating Fund charges the Fund for these services based on an annual allocation factor approved by the
                                                      - 11 -
NCUA Board and derived from a study of actual usage conducted by the management of these Funds. The
allocation factor was 59.8% and 62.00% to the Fund for each in 2004 and 2003, respectively. The cost of
services provided by the NCUA Operating Fund was approximately $79,863,000 and $83,158,000 for
2004 and 2003, respectively, and includes pension contributions of approximately $6,315,000 and
$6,462,000 to the Civil Service Retirement System and Federal Employees Retirement System defined
benefit retirement plans for 2004 and 2003, respectively.

In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with the NCUA Operating
Fund. Interest received was approximately $0 and $11,000 for 2004 and 2003, respectively. The note
receivable balance was $0 at both December 31, 2004 and 2003.

In 1992, the Fund entered into a commitment to fund up to $41,975,000 through a thirty-year secured term
note with the NCUA Operating Fund. The monies were advanced to the NCUA Operating Fund as needed
to fund the costs of constructing a building. Interest income was approximately $512,000 and $732,000 for
2004 and 2003, respectively. The note receivable balances at December 31, 2004 and 2003, were
approximately $25,143,000 and $26,484,000, respectively.

The above note matures as follows (in thousands):

                                                                Term Note

  2005                                                         $    1,341
  2006                                                              1,341
  2007                                                              1,341
  2008                                                              1,341
  2009                                                              1,341
  Thereafter                                                       18,438

  Total                                                        $ 25,143


The variable rate on both term notes is equal to the Fund’s prior-month yield on investments. The average
interest rates during 2004 and 2003 were approximately 1.99% and 2.70%, respectively. At December 31,
2004 and 2003, the rates were 2.00% and 2.08%, respectively.

The NCUA Operating Fund leases certain office space and equipment under operating lease agreements
that expire through 2008. Based on the allocation factor determined by the NCUA’s Board, the Fund
reimburses the NCUA Operating Fund approximately 59.80% of the total lease payments. The cost of
services provided by the NCUA Operating Fund includes rental charges of approximately $608,580 and
$702,460 for 2004 and 2003, respectively.




                                               - 12 -
     The NCUA Operating Fund’s total future minimum lease payments on operating leases as of December 31,
     2004, are as follows (in thousands):

       2005                                                                $ 728
       2006                                                                  742
       2007                                                                  756
       2008                                                                  559
       2009                                                                  573

       Total                                                               $ 3,358

9.   LEASE COMMITMENTS

     Description of Leasing Agreements—The Fund has entered into lease agreements with vendors for the
     lease of equipment that includes computers, laptops, and printers. The Fund leases computer equipment
     under capital lease agreements that expire through 2006.

     A schedule of future minimum lease payments as of December 31, 2004, is as follows (in thousands):

       2005                                                                                      $ 423
       2006                                                                                        106
       2007

       Total                                                                                       529

       Less imputed interest                                                                         (7)

       Present value of net minimum lease payments                                               $ 522

10. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows:

                                                December 31, 2004                  December 31, 2003
                                             Carrying          Fair             Carrying          Fair
                                             Amount           Value             Amount           Value

       Investments                        $ 4,485,591         $4,447,376      $ 4,709,610     $4,735,125
       Cash and cash equivalents            1,872,174          1,872,174        1,364,954      1,364,954
       Accrued interest receivable             38,246             38,246           45,761         45,761
       Capital assessment receivable
       Notes receivable—NCUA
         Operating Fund                        25,143            25,143              26,484        26,484
       Amounts due to insured
         shareholders of liquidated
         credit unions                         11,601            11,601               9,541         9,541
       Due to NCUA Operating Fund                 150               150               1,914         1,914
       Accounts payable                            72                72                   3             3
       Lease obligation                           522               522                 936           936




                                                     - 13 -
11. CONCENTRATIONS

   There are no significant concentrations of member share deposits within any region of the United States.
   Concentrations of member shares do exist within the manufacturing, governmental, and educational
   industries.

12. CONTINGENCIES

   NCUA is currently a party to a number of disputes that involve or may involve litigation. In the opinion of
   management, the ultimate liability with respect to these disputes, if any, will not be material to NCUA’s
   financial position.

13. RESTRUCTURING

   NCUA announced on January 29, 2003, a regional restructuring plan, previously approved by the Board on
   November 21, 2002. The restructuring plan relocated the Region VI office in Concord, California, to
   Tempe, Arizona, and renumbered it to Region V. The plan also closed the Region IV regional office in
   Chicago, Illinois. The Region IV relocation and its related costs began in early 2003 and is expected to be
   completed by June 2005. Region V, located in Austin, Texas, was renumbered to Region IV. Credit union
   supervision was aligned with the five regions and became effective as of January 1, 2004.

   NCUA estimated that the costs to be incurred for the regional restructuring plan are $3,370,000, which
   includes relocation costs of $1,597,000, and miscellaneous administrative and other costs of $1,773,000.
   Approximately $1,880,000 and $1,482,000 of these estimated costs related to 2004 and 2003 respectively.
   Included in the cost estimate for 2004 are accrued costs that will be expended in 2005. Based on the
   allocation factors approved by the NCUA Board, the Fund is responsible for 59.80% of costs expended in
   2004. Thus, the Fund’s estimated cost for the regional restructuring plan in 2004 was approximately
   $1,124,000, and the Operating Fund’s estimated cost for the regional restructuring plan in 2004 was
   $756,000. Substantially all costs have been incurred except for some final relocation costs for employees.
   In accordance with SFAS Statement No. 146, Accounting for Costs Associated with Exit and Disposal
   Activities, an accrual of approximately $270,000 for relocations has been made in the Operating Fund as of
   December 31, 2004.

                                                ******




                                                   - 14 -
 National Credit
 Union Administration
 Central Liquidity Facility
Financial Statements for the Years Ended
December 31, 2004 and 2003, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

TABLE OF CONTENTS


                                                       Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS
  FOR THE YEARS ENDED DECEMBER 31, 2004 AND 2003        1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
   DECEMBER 31, 2004 AND 2003:

 Balance Sheets                                         2

 Statements of Operations                               3

 Statements of Members’ Equity                          4

 Statements of Cash Flows                               5

 Notes to Financial Statements                          6-9
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA
                                                                                           Tel: +1 703 251 1000
                                                                                           Fax: +1 703 251 3400
                                                                                           www.deloitte.com


INDEPENDENT AUDITORS’ REPORT


Inspector General
National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (“CLF”) as of December 31, 2004 and 2003, and the related statements of operations,
members’ equity, and cash flows for the years then ended. These financial statements are the
responsibility of CLF’s management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Company’s internal control over financial reporting. Accordingly,
we express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Administration Central Liquidity Facility as of December 31, 2004 and 2003,
and the results of its operations and its cash flows for the years then ended in conformity with accounting
principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated March 15,
2005, on our consideration of National Credit Union Administration Central Liquidity Facility’s internal
control over financial reporting and our tests of its compliance and other matters. The purpose of that
report is to describe the scope of our testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. That report is an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in considering the
results of our audit.




March 15, 2005




                                                    -1-                                    Member of
                                                                                           Deloitte Touche Tohmatsu
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
DECEMBER 31, 2004 AND 2003
(Dollars in thousands)


ASSETS                                                2004            2003

ASSETS:
 Cash                                           $         10    $         10
 Investments with U.S. Central Credit
  Union (Notes 5, 8, and 9)                         1,357,028       1,238,056
 Accrued interest receivable                            6,533           3,653

TOTAL ASSETS                                    $ 1,363,571     $ 1,241,719


LIABILITIES AND MEMBERS’ EQUITY

LIABILITIES:
 Accounts payable and other liabilities         $        108    $        136
 Dividends payable (Note 7)                            6,478           3,564
 Member deposits (Note 7)                                232           7,958

      Total liabilities                                6,818          11,658

MEMBERS’ EQUITY:
 Capital stock—required (Note 7)                    1,345,345       1,218,654
 Retained earnings                                     11,408          11,407

      Total members’ equity                         1,356,753       1,230,061

TOTAL LIABILITIES AND MEMBERS’ EQUITY           $ 1,363,571     $ 1,241,719

See Notes to Financial Statements.




                                          -2-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2004 AND 2003
(Dollars in thousands)


                                                2004       2003

REVENUE—Investment income                     $ 19,371   $ 14,991

EXPENSES (Note 10):
 Operating expenses:
  Group agent service fee                           1          1
  Personnel services                              129        126
  Other services                                   41         42
  Rent, communications, and utilities               8          7
  Personnel benefits                               32         26
  Supplies and materials                            2          2
  Printing and reproduction                         3          5

      Total operating expenses                    216        209

 Interest-liquidity reserve                        49        105

      Total expenses                              265        314

EXCESS OF REVENUE OVER EXPENSES               $ 19,106   $ 14,677


See Notes to Financial Statements.




                                        -3-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS’ EQUITY
YEARS ENDED DECEMBER 31, 2004 AND 2003
(Dollars in thousands)


                                                Capital     Retained
                                                Stock       Earnings

BALANCE—January 1, 2003                       $ 1,060,995   $ 11,407

 Issuance of required capital stock              158,987

 Redemption of required capital stock             (1,328)

 Dividends                                                   (14,677)

 Excess of revenue over expenses                              14,677

BALANCE—December 31, 2003                      1,218,654      11,407

 Issuance of required capital stock              128,900

 Redemption of required capital stock             (2,209)

 Dividends                                                   (19,105)

 Excess of revenue over expenses                              19,106

BALANCE—December 31, 2004                     $ 1,345,345   $ 11,408


See Notes to Financial Statements.




                                        -4-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2004 AND 2003
(Dollars in thousands)


                                                                      2004            2003

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenue over expenses                                 $    19,106     $    14,677
 Adjustments to reconcile excess of revenue over expenses
  to net cash provided by operating activities:
  (Increase) decrease in accrued interest receivable                   (2,880)          1,389
 (Decrease) increase in accounts payable and other liabilities            (28)             28

      Net cash provided by operating activities                       16,198          16,094

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments—net                                         (118,972)       (156,694)

      Net cash used in investing activities                          (118,972)       (156,694)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Additions to member deposits                                            516             959
 Issuance of required capital stock                                  128,900         158,987
 Dividends                                                           (16,193)        (14,677)
 Withdrawal of member deposits                                        (8,240)         (3,342)
 Redemption of required capital stock                                 (2,209)         (1,328)

      Net cash provided by financing activities                      102,774         140,599

NET DECREASE IN CASH                                                         0             (1)

CASH—Beginning of year                                                    10              11

CASH—End of year                                                 $        10     $        10

SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION—Cash paid during the year for:
 Interest                                                        $        49     $       105


See Notes to Financial Statements.




                                                  -5-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2004 AND 2003


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Central Liquidity Facility (“CLF”) was created by the National
     Credit Union Central Liquidity Facility Act (the “Act”). The CLF is designated as a mixed-ownership
     government corporation under the Government Corporation Control Act. The CLF exists within the
     National Credit Union Administration (“NCUA”) and is managed by the National Credit Union
     Administration Board. The CLF became operational on October 1, 1979.

     The purpose of the CLF is to improve general financial stability by meeting the liquidity needs of credit
     unions. The CLF is a tax-exempt organization under Section 501(c)(1) of the Internal Revenue Code.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting—The CLF maintains its accounting records on the accrual basis of accounting.

     Loans and Allowance for Loan Losses—Loans, when made to members, are on a short-term or long-term
     basis. For all loans, the CLF may obtain a security interest in the assets of the borrower. In determining the
     allowance for loan losses, when applicable, the CLF evaluates the collectibility of its loans to members
     through examination of the financial condition of the individual borrowing credit unions and the credit
     union industry in general.

     Investments—The CLF invests in redeposits and share accounts at U.S. Central Credit Union (see Notes 5
     and 8). All other investments are short-term with no maturities in excess of one year. All investments are
     classified as held-to-maturity. Accordingly, the CLF records investments at amortized cost. Amortized cost
     is the face value of the securities plus the unamortized premium or less the unamortized discount.

     Fair Value of Financial Instruments—The following methods and assumptions were used in estimating
     the fair value disclosures for financial instruments:

     Cash—The carrying amounts for cash approximate fair value.

     Investments—Securities held have maturities of one year or less and, as such, the carrying amounts
     approximate fair value.

     Loans—For loans advanced to member credit unions, the carrying amounts approximate fair value.

     Member Deposits—Funds maintained with the CLF in excess of required capital amounts are recorded as
     member deposits. These deposits are due upon demand and the carrying amounts approximate the fair
     value.

     FFB Notes Payable—For notes issued to the Federal Financing Bank, when applicable, the carrying
     amounts approximate fair value.

     Other—Accrued interest receivable, accounts payable and other liabilities are recorded at book values,
     which approximate the respective fair values.

                                                       -6-
     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosures of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates. Certain amounts
     have been reclassified in the current year.

     Reclassifications—Certain items in the 2003 financial statements have been reclassified to conform to the
     2004 presentation.

3.   GOVERNMENT REGULATIONS

     The CLF is subject to various Federal laws and regulations. The CLF’s operating budget requires
     Congressional approval, and the CLF may not make loans to members for the purpose of expanding credit
     union loan portfolios. The CLF’s investments are restricted to obligations of the United States Government
     and its agencies, deposits in Federally insured financial institutions, and shares and deposits in credit
     unions. Borrowing is limited by statute to twelve times the subscribed capital stock and surplus. However,
     there is a Congressional limitation of $1.5 billion on funds that are borrowed and then loaned out to credit
     unions at any one point in time.

     At December 31, 2004 and 2003, the CLF was in compliance with its borrowing authority. Borrowings
     would be from the Federal Financing Bank with interest generally payable upon maturity (see Note 12).

4.   LOANS TO MEMBERS

     There were no loans or loan commitments outstanding at December 31, 2004 and 2003. The CLF can
     provide members with extended loan commitments.

5.   FUNDS ON DEPOSIT WITH U.S. CENTRAL CREDIT UNION

     Funds not currently required for operations are invested as follows (in thousands):

                                                                                  December 31,
                                                                               2004            2003

       U.S. Central Credit Union Redeposit account (see Note 8)          $ 1,357,028        $ 1,238,056




                                                       -7-
6.   BORROWING AUTHORITY

     The Secretary of the Treasury is authorized by the Act to lend up to $500 million to the CLF in the event
     that the Board certifies to the Secretary that the CLF does not have sufficient funds to meet the liquidity
     needs of credit unions. This authority to lend is limited to such extent and in such amounts as are provided
     in advance by Congressional Appropriation Acts. On December 23, 1981, the President signed PL 97-101,
     which provided $100 million of permanent indefinite borrowing authority that may be provided by the
     Secretary of the Treasury to the CLF to meet emergency liquidity needs of credit unions. Borrowings
     would be from the Federal Financing Bank with interest generally payable upon maturity (see Note 12).


7.   CAPITAL STOCK AND MEMBER DEPOSITS

     The required capital stock account represents subscriptions remitted to the CLF by member credit unions.
     Regular members’ required subscription amounts equal one-half of one percent of their paid-in and
     unimpaired capital and surplus, one-half of which is required to be remitted to the CLF. Agent members’
     required subscription amounts equal one-half of one percent of the paid-in and unimpaired capital and
     surplus of all of the credit unions served by the agent member, one-half of which is required to be remitted
     to the CLF. In both cases, the remaining one-half of the subscription is required to be held in liquid assets
     by the member credit unions subject to call by the National Credit Union Administration Board. These
     unremitted subscriptions are not reflected in the CLF’s financial statements. Subscriptions are adjusted
     annually to reflect changes in the member credit unions’ paid-in and unimpaired capital and surplus.
     Dividends are declared and paid on required capital stock.

     Member deposits represent amounts remitted by members over and above the amount required for
     membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on required
     capital stock.

     Dividends payable represents dividends declared in 2004 to be paid in of 2005.

8.   U.S. CENTRAL CREDIT UNION MEMBERSHIP

     During fiscal year 1984, the CLF accepted a membership request from U.S. Central Credit Union (“USC”)
     on behalf of its corporate credit union members. At December 31, 2004 and 2003, $1,292,059,000 and
     $1,168,602,000, respectively, of the required portion of subscribed capital stock were purchased from the
     CLF by USC on behalf of its member credit unions. The CLF has 29 and 31 corporate credit union
     members as of December 31, 2004 and 2003, respectively.

     In addition, by accepting the USC membership request, the CLF was initially committed to reinvest all but
     $50,000,000 of its total share capital in USC at market rates of interest. Beginning April 1, 1996, the CLF
     reinvests all of its agent member share capital in USC at market rates of interest. At December 31, 2004
     and 2003, approximately $1,357,028,000 and $1,238,056,000, respectively, were invested in USC accounts
     at 1.91% and 1.17%, respective yields.

9.   CONCENTRATION OF CREDIT RISK

     At December 31, 2004 and 2003, the CLF has a concentration of credit risk for its investments on deposit
     with USC of approximately $1,357,028,000 and $1,238,056,000, respectively (see Notes 5 and 8).

10. SERVICES PROVIDED BY THE NATIONAL CREDIT UNION ADMINISTRATION

     The National Credit Union Administration provides the CLF with data processing and other miscellaneous
     services and supplies. In addition, the National Credit Union Administration pays CLF’s employees’
                                                       -8-
   salaries and benefits as well as the CLF’s portion of monthly building operating costs. The CLF reimburses
   the National Credit Union Administration on a monthly basis for these items. Total reimbursements were
   approximately $218,000 and $205,000 for the years ended December 31, 2004 and 2003, respectively.

11. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

   The carrying amount and the estimated fair value of the CLF’s financial instruments are as follows (in
   thousands):

                                               December 31, 2004                    December 31, 2003
                                           Carrying          Fair                Carrying          Fair
                                           Amount           Value                Amount           Value

     Cash                              $          10         $          10   $          10    $          10
     Investments                           1,357,028             1,357,028       1,238,056        1,238,056
     Accrued interest receivable               6,533                 6,533           3,653            3,653
     Member Deposits                             232                   232           7,958            7,958
     Dividends Payable                         6,478                 6,478           3,564            3,564
     Accounts payable and
      other liabilities                         108                   108             136              136

12. SHORT-TERM REVOLVING CREDIT FACILITY

   On July 15, 1999, the National Credit Union Administration signed a note purchase agreement with the
   Federal Financing Bank on behalf of CLF. The agreement originally provided for a commitment amount of
   $20.7 billion. Subsequently, the agreement expired on September 30, 2004, and was extended through
   consecutive short-term revolving credit facility promissory notes. These promissory notes reduced the
   credit facility to $5 billion and expire yearly on the 31st of March. The current promissory note expires
   March 31, 2006.

                                                 ******




                                                       -9-
National Credit
Union Administration
Community Development
Revolving Loan Fund
Financial Statements for the Years Ended
December 31, 2004 and 2003, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

TABLE OF CONTENTS

                                                       Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS     1

FINANCIAL STATEMENTS FOR THE YEARS ENDED
   DECEMBER 31, 2004 AND 2003:

 Balance Sheets                                          2

 Statements of Operations                                3

 Statements of Changes in Fund Balance                   4

 Statements of Cash Flows                                5

 Notes to Financial Statements                         6-10
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA
                                                                                           Tel: +1 703 251 1000
                                                                                           Fax: +1 703 251 3400
                                                                                           www.deloitte.com

INDEPENDENT AUDITORS’ REPORT


Inspector General
National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration
Community Development Revolving Loan Fund (“CDRLF”) as of December 31, 2004 and 2003, and the
related statements of operations, changes in fund balance, and cash flows for the years then ended. These
financial statements are the responsibility of the CDRLF’s management. Our responsibility is to express
an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Company’s internal control over financial reporting. Accordingly,
we express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Administration Community Development Revolving Loan Fund as of
December 31, 2004 and 2003, and the results of its operations and its cash flows for the years then ended
in conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated March 15,
2005, on our consideration of National Credit Union Administration Central Liquidity Facility’s internal
control over financial reporting and our tests of its compliance and other matters. The purpose of that
report is to describe the scope of our testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. That report is an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in considering the
results of our audit.




March 15, 2005




                                                     -1-                                   Member of
                                                                                           Deloitte Touche Tohmatsu
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
DECEMBER 31, 2004 AND 2003


ASSETS                                            2004             2003

 Cash and cash equivalents (Note 2)         $ 10,036,466     $ 8,962,039
 Loans—net of allowance (Note 4)               5,017,156       5,298,019
 Interest receivable                              17,057          20,004

TOTAL ASSETS                                $ 15,070,679     $ 14,280,062


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accrued technical assistance               $     727,301    $     142,692

      Total liabilities                           727,301          142,692

FUND BALANCE:
 Revolving fund capital (Note 3)                13,189,378       13,031,596
 Accumulated earnings                            1,154,000        1,105,774

      Total fund balance                        14,343,378       14,137,370

TOTAL LIABILITIES AND FUND BALANCE          $ 15,070,679     $ 14,280,062


See Notes to Financial Statements.




                                      -2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2004 AND 2003


                                                     2004         2003

SUPPORT AND REVENUES:
 Interest on cash equivalents                   $ 122,229       $ 84,369
 Interest on loans                                  66,193        98,901
 Appropriation revenue                           1,138,472       266,359

      Total                                         1,326,894     449,629

EXPENSES:
 Technical assistance                           (1,310,386)      (400,486)
 Reduction of allowance for loan losses             31,718        175,961

      Total                                     (1,278,668)      (224,525)

EXCESS OF SUPPORT AND REVENUES
 OVER EXPENSES                                  $     48,226    $ 225,104


See Notes to Financial Statements.




                                          -3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 2004 AND 2003


                                                          2004           2003

FUND BALANCE—Beginning of year                        $14,137,370    $13,184,218

 Change in unexpended appropriations:
  Operating appropriations received (Note 3)            1,192,920        994,407
  Appropriation revenue recognized (Note 3)            (1,035,138)      (266,359)

 Excess of support and revenues over expenses              48,226        225,104

FUND BALANCE—End of year                              $ 14,343,378   $ 14,137,370


See Notes to Financial Statements.




                                                -4-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2004 AND 2003


                                                                  2004            2003

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of support and revenues over expenses                $      48,226     $ 225,104
 Adjustments to reconcile the excess of support
  and revenues over expenses to net cash
  used in operating activities:
  Change in unexpended appropriations                            (1,035,138)     (266,359)
 Reduction of allowance for loan losses, net of recoveries         (106,907)     (159,851)
  Changes in assets and liabilities:
   Decrease in interest receivable                                   2,947         20,083
   Increase in accrued technical assistance                        584,609         35,714

      Net cash used in operating activities                       (506,263)      (145,309)

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan principal repayments                                        1,885,228     3,496,233
 Loan disbursements                                              (1,497,458)     (879,997)

      Net cash provided by investing activities                    387,770      2,616,236

CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations received—revolving fund capital                   1,192,920       994,407

      Net cash provided by financing activities                   1,192,920       994,407

NET INCREASE IN CASH AND CASH EQUIVALENTS                         1,074,427     3,465,334

CASH AND CASH EQUIVALENTS—Beginning of year                       8,962,039     5,496,705

CASH AND CASH EQUIVALENTS—End of year                        $   10,036,466    $ 8,962,039


See Notes to Financial Statements.




                                                  -5-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2004 AND 2003


1.   NATURE OF ORGANIZATION

     The Community Development Revolving Loan Fund for Credit Unions (“CDRLF”) was established
     by an act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic development
     in low-income communities. The National Credit Union Administration (“NCUA”) and the
     Community Services Association (“CSA”) jointly adopted Part 705 of NCUA Rules and
     Regulations, governing administration of the Fund, on February 28, 1980.

     Upon the dissolution of CSA in 1983, administration of the CDRLF was transferred to the
     Department of Health and Human Services (“HHS”). Because HHS never promulgated final
     regulations governing the administration of the CDRLF, the Fund was dormant.

     The Community Development Credit Union Transfer Act (Public Law 99-604, November 6, 1986)
     transferred CDRLF administration back to NCUA. The NCUA Board adopted amendments to Part
     705 of NCUA Rules and Regulations on September 16, 1987, and began making loans/deposits to
     participating credit unions in 1990.

     The purpose of the CDRLF is to stimulate economic activities in the communities served by
     low-income credit unions which will result in increased income, ownership and employment
     opportunities for low-wealth residents, and other economic growth. The policy of NCUA is to
     revolve the loans to qualifying credit unions as often as practical in order to gain maximum impact
     on as many participating credit unions as possible.

2.   SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

     Basis of Accounting—The CDRLF reports its financial statements on the accrual basis of
     accounting.

     Cash Equivalents—The Federal Credit Union Act permits the CDRLF to make investments in
     United States Government Treasury securities. All investments in 2004 and 2003 were cash
     equivalents and are stated at cost which approximates fair value. Cash equivalents are highly liquid
     investments with original maturities of three months or less.

     Allowance for Loan Losses—The CDRLF records a provision for estimated loan losses. Loans
     considered to be uncollectible are charged to the allowance for loan losses. Management continually
     evaluates the adequacy of the allowance for loan losses based upon prevailing circumstances and an
     assessment of collectibility risk of the total loan portfolio. Accrual of interest is discontinued on
     non-performing loans when management believes collectibility is doubtful. At December 31, 2004
     and 2003, there were no nonaccrual loans.

     Salary and Operating Expenses—NCUA provides certain general and administrative support to the
     CDRLF, including office space, salaries, and certain supplies. The value of these contributed
     services is not charged to the CDRLF.


                                                -6-
     Revenue Recognition—Appropriation revenue is recognized as the related technical assistance
     expense is recognized. Total appropriation revenues will differ from total technical assistance
     expenses because not all technical assistance is funded by appropriations.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent
     assets and liabilities at the date of the financial statements and the reported amounts of revenues and
     expenses during the reporting period. Actual results could differ from management’s estimates.

3.   GOVERNMENT REGULATIONS

     The CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending
     and technical assistance, is limited by Congress to a total of the $16,335,528 appropriated for the
     CDRLF plus accumulated earnings. Federally chartered and state-chartered credit unions may
     participate in the CDRLF’s Community Loan Fund. Loans may only be made to low-income credit
     unions as defined by the NCUA.

     NCUA Rules and Regulations section 705.7 permit the classification of the loan in the participating
     credit union’s accounting records as either a note payable or a nonmember deposit. As a nonmember
     deposit, an amount not to exceed $100,000 per credit union is insured by the National Credit Union
     Share Insurance Fund (“NCUSIF”). The covered amount of loans recorded as nonmember deposits
     by participating credit unions insured by the NCUSIF totaled approximately $3,631,673 and
     $3,730,636 at December 31, 2004 and 2003, respectively. Under the CDRLF Loan Program, loans
     recorded in the credit union’s accounting records as notes payable may be collateralized.

     Loans are limited to a maximum amount of $300,000 per credit union. Loans issued between
     January 1, 1995, and December 31, 1998, carry a fixed interest rate of 3%; loans issued between
     January 1, 1999, and December 31, 2001, carry a fixed rate of 2%; and loans issued after January 1,
     2002, carry a fixed rate of 1%. Interest and principal are repaid on a semiannual basis beginning six
     months and one year, respectively, after the initial distribution of the loan. The maximum term of each
     loan is five years. Participating credit unions are required to match the value of the loan within one
     year of the date of approval of the loan.

     During the year ended December 31, 2004, appropriations for loans and technical assistance in the
     amount of $ 1,192,920 were received. Of this amount, $994,100 was designated to be used as
     operating appropriations for technical assistance and $198,820 was designated to be used as revolving
     fund capital. For the appropriations received for technical assistance, monies expired on September
     30, 2004.



                                                               Public Law      Public Law
       Activities by each appropriation, from inception        No. 108-199     No. 108-199         Total

        Operating appropriation received                       $ 994,100       $ 198,820      $ 1,192,920
        Appropriation revenue recognized                        (994,100)       (198,820)      (1,192,920)

        Balance—December 31, 2004                              $               $               $




                                                 -7-
                                                                             2004               2003
       Unexpended appropriations:
        Balance—beginning of the year                                  $      737,396     $       9,348
        Operational appropriations received                                 1,192,920           994,407
        Appropriation revenue recognized                                   (1,035,138)         (266,359)

       Balance—end of year                                             $     895,178      $     737,396

       Revolving fund capital:
        Balance—beginning of the year                                  $ 13,031,596       $ 12,303,548
        Change in unexpended appropriations                                 157,782            728,048

       Balance—end of year                                             $ 13,189,378       $ 13,031,596



4.   LOANS

     Loans outstanding at December 31, 2004 and 2003, are scheduled to be repaid during the following
     subsequent years:

                                                                                2004             2003

       Year   1                                                             $1,827,943        $1,676,793
       Year   2                                                              1,179,047         1,713,228
       Year   3                                                              1,068,191           849,821
       Year   4                                                                583,491           788,718
       Year   5                                                                391,577           409,459

                                                                             5,050,249         5,438,019

       Less allowance for loan losses                                          (33,093)        (140,000)

       Net loans outstanding                                                $5,017,156        $5,298,019




                                               -8-
     Changes in the allowance for loan losses are summarized below:

                                                                                       2004            2003

       Balance—beginning of year                                                  $ 140,000       $ 299,851
       Loans recovered                                                                               16,110
       Write-offs                                                                     (75,189)
       Reduction of allowance for loan losses                                         (31,718)      (175,961)
       Balance—end of year                                                        $   33,093      $ 140,000


5.   CONCENTRATION OF CREDIT RISK

     At December 31, 2004 and 2003, there are no significant concentrations of credit risk in the loan
     portfolio. As discussed in Note 1, the CDRLF provides loans to credit unions that serve
     predominantly low-income communities.

6.   ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

     The following disclosures of the estimated fair value of financial instruments are made in
     accordance with the requirements of Statement of Financial Accounting Standards No. 107,
     Disclosures about Fair Value of Financial Instruments. The methods and assumptions used in
     estimating the fair value disclosures for financial instruments are as follows:

     Cash and Cash Equivalents—The carrying amounts for cash and cash equivalents approximate fair
     values.

     Interest Receivable and Accrued Technical Assistance—Such items are recorded at book values,
     which approximate the respective fair values.

     Loans—The fair value is estimated by discounting projected future cash flows using current market
     interest rates. For purposes of this calculation, the discount rate used was the prime interest rate plus
     two percent (7.25% at December 31, 2004 and 6.00% at December 31, 2003).

     The carrying amount and the estimated fair value of the CDRLF’s financial instruments are as
     follows:




                                                  -9-
                                                     December 31, 2004                 December 31, 2003
                                                Carrying          Estimated          Carrying        Estimated
                                                Amount            Fair Value         Amount          Fair Value


  Assets:
   Cash and cash equivalents                $ 10,036,466      $ 10,036,466       $ 8,962,039     $ 8,962,039

   Interest receivable                      $        17,057   $       17,057     $     20,004    $      20,004

   Loans                                    $   5,050,249     $    4,764,471     $ 5,438,019     $ 5,070,631
   Allowance for loan losses                      (33,093)           (33,093)       (140,000)       (140,000)

   Loans—net of allowance                   $   5,017,156     $    4,731,378     $ 5,298,019     $ 4,930,631

  Liabilities:
   Accrued technical assistance             $       727,301   $      727,301     $ 142,692       $ 142,692



It is the intent of the CDRLF to hold its loans to maturity. The CDRLF anticipates realizing the
carrying amount in full. Fair value is less than the carrying amount because loans are made at less
than market interest rates.

                                          ******




                                           - 10 -
